Appellate Case: 20-6084

Document: 010110415479

Date Filed: 09/29/2020

Page: 1

FILED
United States Court of Appeals
Tenth Circuit
UNITED STATES COURT OF APPEALS
September 29, 2020

TENTH CIRCUIT

Christopher M. Wolpert
Clerk of Court
TODD OLIVER AMEEN,
Petitioner - Appellant,
No. 20-6084
(D.C. No. 5:19-CV-00485-PRW)
(W.D. Okla.)

v.

DEON CLAYTON, Interim Warden,
Respondent - Appellee.

ijr - A

ORDER DENYING CERTIFICATE
OF APPEALABILITY

Before PHILLIPS, MURPHY, and McHUGH, Circuit Judges.

This matter is before the court on Todd Ameen’s request for a certificate of
appealability (“COA”) and for permission to proceed on appeal in forma pauperis.
Ameen seeks a COA so he can appeal the dismissal, on timeliness grounds, of his
28 U.S.C. § 2254 habeas petition. See 28 U.S.C. § 2253(c)(1)(A) (providing no
appeal may be taken from a final order denying habeas corpus relief unless the
petitioner first obtains a COA); id. § 2244(d) (setting out a one-year limitations
period as to § 2254 habeas corpus petitions). Because Ameen has not “made a
substantial showing of the denial of a constitutional right,” id. § 2253(c)(2) this
court denies his request for a COA and dismisses this matter.

Appellate Case: 20-6084

Document: 010110415479 - Date Filed: 09/29/2020

Page: 2

On November 17, 2016, Ameen pleaded guilty, in Oklahoma state court, to
one count of first degree burglary. Ameen’s conviction became final ten days
later, on November 27, 2016, because Ameen did not seek to timely withdraw his
plea or seek a direct appeal to the Oklahoma Court of Criminal Appeals. See
Okla. Stat. tit. 22, Ch.18 App. Rule 4.2; Okla. Stat. tit. 22, § 1051. Pursuant to
28 U.S.C. § 2244(d)(1), the § 2244 limitations period for Ameen to file a § 2254
petition began to run on November 28, 2016, and would normally have expired on
November 28, 2017. See Harris v. Dinwiddie, 642 F.3d 902, 907 n.6 (10th Cir.
2011). In this case, however, the district court assumed, without deciding, that
Ameen was entitled to ninety-four days of statutory tolling, pursuant to 28 U.S.C.
§ 2244(d)(2), while Ameen had pending in state court a motion for judicial review
under Okla. Stat. tit. 22, § 982a. See Randall v. Allbaugh, 662 F. App’x 571, 573
n.3 (10th Cir. 2016) (noting that whether such a motion entitles a petitioner to
statutory tolling is an unresolved question in this circuit); Doby v. Dowling, 632
F. App’x 485, 488 (10th Cir. 2015) (“We can assume that [petitioner’s] limitation
period was tolled while this [§ 982a] motion [for judicial review] was
pending . . . .”). Thus, the limitations period for Ameen to file his § 2254 habeas
petition expired on March 2, 2018.1

]Like the district court, this court sees no need to resolve this question.
Ameen’s § 2254 petition is untimely even if we assume his Oklahoma state § 982a
(continued...)
-2-

Appellate Case: 20-6084

Document: 010110415479

Date Filed: 09/29/2020

Page: 3

Ameen filed the instant § 2254 habeas petition on May 28, 2019, almost
fifteen months after the expiration of the limitations period set out in § 2244(d).
The matter was referred to a magistrate judge for initial proceedings. 28 U.S.C.
§ 636(b)(1). In a thorough and well-reasoned Report and Recommendation, the
magistrate judge concluded as follows: (1) Ameen’s attempt to invoke actual
innocence was unavailing because the assertion was really a claim of legal
innocence, rather than factual innocence; (2) Ameen was not entitled to equitable
tolling because, inter alia, he failed to demonstrate he diligently pursued his
rights, see Lawrence v. Florida, 549 U.S. 327, 336 (2007); and (3) the delayed
accrual provision set out in § 2244(d)(1)(D) was not applicable because Ameen
was well aware of the factual basis of his substantive habeas claim at the time he
committed the burglary. In a lengthy order that considered a whole series of
objections and supplements filed by Ameen, the district court adopted the
magistrate judge’s Report and Recommendation and dismissed Ameen’s § 2254
habeas petition as untimely.
Ameen seeks a COA so he can appeal the district court’s dismissal of his
§ 2254 petition. The granting of a COA is a jurisdictional prerequisite to
Ameen’s appeal from the denial of his § 2254 petition. Miller-El v. Cockrell, 537

^...continued)
motion entitles him to ninety-four days of statutory tolling.
-3-

Appellate Case: 20-6084

Document: 010110415479

Date Filed: 09/29/2020

Page: 4

U.S. 322, 336 (2003). To be entitled to a COA, Ameen must make “a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). That is,
he must demonstrate “reasonable jurists could debate whether (or, for that matter,
agree that) the petition should have been resolved in a different manner or that the
issues presented were adequate to deserve encouragement to proceed further.” Id.
(quotations omitted). When a district court dismisses a § 2254 petition on
procedural grounds, a petitioner is entitled to a COA only if he shows both that
reasonable jurists would find it debatable whether he had stated a valid
constitutional claim and debatable whether the district court’s procedural ruling
was correct. Slack v. McDaniel, 529 U.S. 473, 484-85 (2000). In evaluating
whether Ameen has satisfied his burden, this court undertakes “a preliminary,
though not definitive, consideration of the [legal] framework” applicable to each
of his claims. Miller-El, 537 U.S. at 338. Although Ameen need not demonstrate
his appeal will succeed to be entitled to a COA, he must “prove something more
than the absence of frivolity or the existence of mere good faith.” Id.
Having undertaken a review of Ameen’s appellate filings, the magistrate
judge’s Report and Recommendation, the district court’s order, and the entire
record before this court pursuant to the framework set out by the Supreme Court
in Miller-El, we conclude Ameen is not entitled to a COA. The district court’s
resolution of Ameen’s petition is not reasonably subject to debate. Indeed, in

-4-

Appellate Case: 20-6084

Document: 010110415479

Date Filed: 09/29/2020

Page: 5

denying Ameen’s request for a CO A, this court sees no need to recapitulate the
cogent analyses set out in both the magistrate judge’s Report and
Recommendation and the district court’s order. Accordingly, this court DENIES
Ameen’s request for a COA and DISMISSES this matter. Ameen’s request to
proceed on appeal in forma pauperis is GRANTED. All other pending motions,
specifically including Ameen’s requests for an evidentiary hearing and for
appointment of counsel are hereby DENIED.
ENTERED FOR THE COURT

Michael R. Murphy
Circuit Judge

-5-

Case 5:19-cv-00485-PRW Document 42 Filed 05/28/20 Page 1 of 13

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA

TODD OLIVER AMEEN,

)
)
)
)
)
)
)
)
)

Petitioner,
V.

DEON CLAYTON, Interim Warden, 1
Respondent.

Case No. CIV-19-00485-PRW

ORDER
Petitioner Todd Oliver Ameen, a state inmate appearing pro se, seeks habeas relief
under 28 U.S.C. § 2254. The matter was referred to Magistrate Judge Bernard Jones for
initial proceedings consistent with 28 U.S.C. § 636(b)(1)(B) and (C). Respondent Tommy
Sharp filed a Motion to Dismiss Petition for Writ of Habeas Corpus as Time-Barred by the
Statute of Limitations (Dkt. 13) and Brief in Support (Dkt. 14), to which the Petitioner filed
a Response (Dkt. 17). On August 27, 2019, the Magistrate Judge issued a Report and
Recommendation (Dkt. 18) recommending that Respondent’s Motion to Dismiss (Dkt. 13)
be granted and giving Petitioner until September 17th to file any objections.
Petitioner filed a Motion for Extension of Time to File Objections to Report and
Recommendation (Dkt. 19) on September 16, 2019, asking that he be given more time to
type his objections, and then filed his partially typed Objections to Report and
i

Pursuant to Rule 25(d) of the Federal Rules of Civil Procedure, Deon Clayton, Interim
Warden of the Howard McLeod Correctional Center, is hereby substituted as .the
Respondent in this action.
1

Case 5:19-cv-00485-PRW Document 42 Filed 05/28/20 Page 2 of 13

Recommendation (Dkts. 20 & 20-2) on September 18, 2019. On September 23, 2019, the
Court entered and Order (Dkt. 21) denying the motion for extension of time as unnecessary
because the handwritten portion of Petitioner’s objections was adequately legible, thus
obviating the need for conversion to type. Since then, Petitioner has also filed five motions
to supplement his objections to the Report and Recommendation and a handwritten Motion
for Matter Under Advisement/Motion for Inquiry (Dkt. 37) that asks this Court to “inform
[him] of its position regarding his § 2254 Petition and/or status of determination.”
The Court must resolve his objections by “mak[ing] a de novo determination of
those portions of the report or specified proposed findings or recommendations to which
objection is made. »2 Only after that may the Court “accept, reject or modify the
recommended disposition; receive further evidence; or return the matter to the magistrate
judge with instructions. »3
For the reasons discussed below, the Court OVERRULES Petitioner’s Objections
to Report and Recommendation (Dkts. 20 & 20-2); GRANTS his motions to supplement
(Dkts. 22, 23, 24, 26 & 30) and OVERRULES any objections contained therein;
ACCEPTS the Magistrate Judge’s Report and Recommendation (Dkt. 18); GRANTS
Respondent’s Motion to Dismiss Petition for Writ of Habeas Corpus as Time-Barred by
the Statute of Limitations (Dkt. 13); and DISMISSES WITH PREJUDICE the claims
contained in the Petition for Writ of Habeas Corpus Under 28 U.S.C. § 2254 by a Person

2 28 U.S.C. § 636(b)(1); see Fed. R. Civ. P. 72(b)(3).
3 28 U.S.C. § 636(b)(1).
2

Case 5:19-cv-00485-PRW Document 42 Filed 05/28/20 Page 3 of 13

in State Custody (Dkt. 1) as time-barred by the one-year statute of limitations appearing in
28 U.S.C. § 2244(d)(1). Insofar as this Order rules upon the timeliness of the habeas
petition, Petitioner’s Motion for Matter Under Advisement/Motion for Inquiry (Dkt. 37) is
rendered MOOT.
I. ANALYSIS
A. Petitioner’s Objections to Report and Recommendation (Dkts. 20 & 20-2)
Petitioner’s primary argument is that he was insane at the time he committed his
crime, and that he thus cannot be held legally responsible for that crime. The Report and
Recommendation (Dkt. 5) correctly characterizes this as a claim of legal innocence, rather
than one of actual innocence.4 Petitioner objects to this characterization, and argues that
his petition should be treated as one alleging actual innocence, such that the Court should
ignore the procedural default of untimeliness and reach the merits of Petitioner’s claims in
order to avoid a fundamental miscarriage of justice.5 Upon de novo review, the Court
agrees with the Magistrate Judge’s analysis and conclusion that the Petition (Dkt. 1) raises
a claim of legal innocence, and not actual innocence.6 “[A]n insanity defense, even if

4R. &R. (Dkt. 18) at 6-7.
5 Objs. to R. &R. (Dkt. 20)atl.
6 Petitioner’s claim of actual innocence is belied by his admission in the Plea of
Guilty/Summary of Facts (Dkt. 14-2) that he “broke [sic] and entered the home of Spencer
Hinkle, while Mr. Hinkle was home, with intent to commit a felony.” Plea of
Guilty/Summary of Facts (Dkt. 14-2) at 5 (emphasis added). Although such statement was
apparently written by Petitioner’s attorney, Petitioner verified that he and his attorney went
over the form and that he “underst[oo]d its contents and agree[d\ with the answers,” id. at
6 (emphasis added); and his attorney certified that he “read and fully explained to the
[Petitioner] all of the questions in the Plea of Guilty/Summary of Facts and [that] the
3

Case 5:19-cv-00485-PRW Document 42 Filed 05/28/20 Page 4 of 13

justified, does not demonstrate factual innocence.”7 Consequently, Petitioner’s objection
on this basis is overruled.
Petitioner next objects to the Magistrate Judge’s conclusion that Petitioner knew of
the factual predicates for his claim of insanity before his conviction became final. Petitioner
argues that he did not become aware of the factual predicates until December 6,2017, when
he received a copy of the incident report related to his offense.8 The Magistrate Judge is
correct, however, that Petitioner’s admission that he “told counsel for 2014 months ... that
[he] was suffering from mental illness at the time of the offense” demonstrates that
Petitioner was aware of the fact of his potential insanity defense before his conviction
became final.9 While the incident report may provide evidentiary support for an insanity
defense, the Magistrate Judge is correct that § 2244(d)(1)(D) is not implicated, because
Petitioner was plainly aware of the fact of his potential insanity defense prior to receiving
the incident report. The critical issue is whether Petitioner was aware of the underlying
facts that might serve as the basis for an insanity defense, not whether he was aware of

answers to the questions set out in the Summary ofFacts are the [Petitioner] ’s answers,”
id. at 12 (emphasis added).
7 Freeman v. Zavaras, 467 F. App’x 770, 776 (10th Cir. 2012) (citing DeLalio v. Wyoming,
363 F. App’x 626 (10th Cir. 2010)).
8

Objs. to R. & R. (Dkt. 20-2) at 1, 6; see also Objs. to R. & R. (Dkt. 20) at 12, 14.

9 R. & R. (Dkt. 18) at 8 (citing Pet. for Writ of Habeas Corpus Under 28 U.S.C. § 2254 by
a Person in State Custody (Dkt. 1) at 9-10).
4

Case 5:19-cv-00485-PRW Document 42 Filed 05/28/20 Page 5 of 13

evidence that would support such a defense.10 Consequently, Petitioner’s second objection
is overruled.
B. Petitioner’s First Motion to Supplement (Dkts. 22 & 22-1)
In his first Motion to Supplement Objections to Report and Recommendation (Dkt.
22) filed on October 17, 2019, Petitioner argues that he “failed to raise certain important
necessary objections that should have been raised,” and asks that he be allowed to lodge
those new and untimely objections.11 The Court hereby grants the Motion to Supplement
Objections to Report and Recommendation (Dkt. 22) and considers all objections raised
by Petitioner in reviewing the objected-to portions of the Report and Recommendation
(Dkt. 18) de novo.
Petitioner first claims that “the State trial courts did not address or adjudicate all of
my constitutional claims in my original post-conviction relief application. 5512 This,
however, is not an objection to the Report and Recommendation (Dkt. 18), but rather an
attempt to raise a new argument not made in the Petition (Dkt. 1). Because this argument
was not raised in the Petition (Dkt. 1), and Petitioner offers no excuse for his failure to
include this argument in his Petition (Dkt. 1), the Court rejects this argument as untimely.

10 See id. at 7 (“[T]he statute of limitations begins at the time petitioner discovered the
underlying facts, not the date he discovered evidence to prove those facts.” (citing Craft v.
Jones, 435 F. App’x 789, 791 (10th Cir. 2011))).
11 Mot. to Suppl. Objs. to R. & R. (Dkt. 22) at 1.
12 Suppl. Objs. to Mag.’s R. & R. (Dkt. 22-1) at 1.
5

Case 5:19-cv-00485-PRW Document 42 Filed 05/28/20 Page 6 of 13

Petitioner’s final five objections either re-hash arguments already made in his
Petition (Dkt. 1) or attempt to raise new arguments not made in his Petition (Dkt. I).13
Upon de novo review, the Court agrees with the Magistrate Judge that equitable tolling
does not apply and that—as explained above—Petitioner was aware of the factual predicate
for his insanity defense prior to his conviction becoming final.14 Petitioner’s fourth and
fifth objections miss the point that the Magistrate Judge has correctly concluded it is not
appropriate to address his constitutional claims because those claims are time-barred. Thus,
no hearing is necessary because the Petition (Dkt. 1) must be dismissed. Lastly, Petitioner’s
sixth objection raises an argument not included in his Petition (Dkt. 1), and the Court
accordingly rejects this argument as untimely raised.
Consequently, all objections raised in the first motion to supplement are overruled.
C. Petitioner’s Second Motion to Supplement (Dkts. 23 & 23-2)
On October 29, 2019, Petitioner filed a Motion to Supplement Information
Concerning One of Petitioners [sic] Objections to Report and Recommendation and Newly
Developed Information Concerning the Evidence Provided Supporting Petitioners [sic]
Actual Innocence Claim (Dkt. 23), wherein he “ask[s] to supplement one objection
concerning his court record and information regarding the evidence of his actual
innocence. »15 The Court hereby grants the motion (Dkt. 23) and considers the supplemental

13 Id. at 3-9.
14

See supra note 9 and accompanying text.

15 Mot. to Suppl. Info. Concerning One ofPet’r’s Objs. to R. & R. (Dkt. 23) at 1.
6

Case 5:19-cv-00485-PRW Document 42 Filed 05/28/20 Page 7 of 13

information in reviewing the objected-to portions of the Report and Recommendation (Dkt.
18) de novo.
In furtherance of his argument for statutory tolling under § 2244(d)(1)(A), Petitioner
argues that he has found proof that he was unable to obtain a copy of his police incident
report prior to December 6, 2017, even though he was diligently attempting to do so. The
“proof’ consists of a letter Petitioner attached to his May 22, 2017 Motion for Hearing for
Judicial Review/Modification of Sentence (Dkt. 14-3) filed in state court,16 as well as
another letter filed in state court on November 8, 2017.17 Petitioner’s argument here does
not reach the relevant issue of when Petitioner discovered the underlying facts that would
support an insanity defense; instead, it only reaches the irrelevant issue of when Petitioner
discovered further evidence in support of the underlying facts he had known since before
he entered a guilty plea. Moreover, Petitioner’s “proof’ seemingly undermines his
argument to toll the statute of limitations until December 6, 2017, because the May 22,
2017 letter demonstrate he knew the underlying facts that would support an insanity

16 The May 22,2017 Motion for Hearing for Judicial Review/Modification of Sentence and
attached letter have been filed of record in this case as Exhibit 3 (Dkt. 14-3) to
Respondent’s Brief in Support of Motion to Dismiss Habeas Corpus Petition as TimeBarred by the Statute of Limitations (Dkt. 14). Unfortunately, it appears the portion of the
letter Petitioner quotes has not been included in the record, probably because it was on the
back side of the piece of paper appearing on page 4 of Exhibit 3 and was not scanned. See
Mot. for Hr’g for Judicial Review (Dkt. 14-3) at 4-5 (showing “Back->” at the end of page
4, as well as highlighted page numbers of “76” and “78” for the state court’s Record on
Appeal). The full letter is publicly available at https://www.oscn.net/dockets/
GetDocument.aspx?ct-cleveland&bc-1036832286&cn=CF-2015-474&fmt-pdf.
17 This letter has not been filed of record in this case, but is publicly available at
https://www.oscn.net/dockets/GetDocument. aspx?ct=cleveland&bc=:1038442506&cn=
CF-2015-474&fmt=pdf.
7

Case 5:19-cv-00485-PRW Document 42 Filed 05/28/20 Page 8 of 13

defense before he pleaded guilty in November 17, 2016.18 Accordingly, Petitioner’s
argument here does not change the Court’s decision to overrule the second objection raised
in Petitioner’s Objections to Report and Recommendation (Dkt. 20-2).
In support of his actual innocence claim, Petitioner asserts that a new “fact has
developed” that he believes “is strongly supportive and beneficial to [his] defense of
insanity. ”19 The new fact is the Midwest City Municipal Court’s dismissal on September
16, 2019, of an unrelated case from 2015. Petitioner argues that the municipal case was
dismissed because he filed a motion to dismiss on grounds of insanity.20 But the order of
dismissal that Petitioner attached to his motion to supplement shows the charges were
“dismissed without prejudice” because Petitioner “is in prison. ”21 Consequently,
Petitioner’s argument that this dismissal somehow proves he was insane 12 days before he
committed the crime at issue in this habeas proceeding is misplaced. Moreover, Petitioner’s
argument has missed the point that insanity serves as no basis for “actual innocence” within

18 See, e.g., Mot. for Hr’g for Judicial Review (Dkt. 14-3) at 4-5 (demonstrating that as of
May 2017, Petitioner knew he was diagnosed paranoid schizophrenic, that he “was talking
to [his] deceased grandfather and looking for him at the time” of the alleged burglary, and
that he “was without [his] medication and was dillusional [sic] and not thinking very
clearly”); id at 5 (admitting that, while he was still being prosecuted for the underlying
burglary in state court, he had sent about “20 or 30” letters to his public defender explaining
that he “was suffering from [his] mental disorder and talking to [his] deceased grandfather
and did not know what [he] was doing.”).
19 Suppl. Info, for Objs. to Mag.’s R. & R. (Dkt. 23-2) at 2.
20 Id.
21 Midwest City Mun. Ct. Plea Agreement (Dkt. 23-1) at 1 (emphasis added). Had the
municipal court found that Petitioner’s case should be dismissed for reasons of insanity, it
would have presumably dismissed the case with prejudice.
8

i

Case 5:19-cv-00485-PRW Document 42 Filed 05/28/20 Page 9 of 13

the Tenth Circuit.22 Consequently, Petitioner’s argument does not change the Court’s
decision to overrule the first objection raised in Petitioner’s Objections to Report and
Recommendation (Dkt. 20).
D. Petitioner’s Third Motion to Supplement (Dkts. 24 & 24-1)
On November 25, 2019, Petitioner filed a Motion to Supplement Information
Concerning One of Petitioners [sic] Objections to Report and Recommendation (Dkt. 24),
wherein he requests leave to supplement an objection with “information concerning]
further explanation and fact on the issue of factual predicates/new evidences. »23 The
Court hereby grants the motion (Dkt. 24) and considers the supplemental information in
reviewing the objected-to portions of the Report and Recommendation (Dkt. 18) de novo.
Petitioner’s third motion to supplement simply re-hashes arguments already made
in his second motion.24 The only new argument appearing in the third motion to supplement
is Petitioner’s assertion that “[his] own confused misunderstood knowledge of [his] mental
illness being suffered at the time of the offense . . . should not be looked at as a factual
predicate of [his] claims because although [he] had given [his] testimony to counsel,
counsel never once offered any defense concerning it and never discussed [his] sanity at
the time of the offense with [him] even though [he] had brought it up to him [i.e., counsel]

22 See supra notes 6-7 and accompanying text.
23 Mot. to Suppl. Info. Concerning One of Pet’r’s Objs. to R. & R. (Dkt. 24) at 1.
24 Compare Suppl. Objs. to Mag.’s R. & R. (Dkt. 24-1) at 5, 8-9 (discussing the Midwest
City Municipal Court’s dismissal of an unrelated case, the May 22, 2017 letter, and the
November 8, 2017 letter), with Suppl. Info, for Objs. to Mag.’s R. & R. (Dkt. 23-2) at 1-2
(discussing the same).
9

Case 5:19-cv-00485-PRW Document 42 Filed 05/28/20 Page 10 of 13

for 20 months.”25 Although Petitioner seemingly acknowledges for the first time the
important difference between his knowledge of an underlying fact and his knowledge of
evidence supporting such fact, he ends up back where he started—arguing that his
knowledge of supporting evidence should be deemed the factual predicate. But his
statement clearly shows that he told defense counsel for 20 months about his alleged
insanity at the time of the offense. Petitioner’s argument here does not change the Court’s
decision to overrule the second objection raised in Petitioner’s Objections to Report and
Recommendation (Dkt. 20-2).
E. Petitioner’s Fourth Motion to Supplement (Dkt. 26)
On December 20, 2019, Petitioner filed a Motion to Supplement Information/Facts
Concerning Petitioners [sic] Objections to Report and Recommendation (Dkt. 26), wherein
he requests leave to provide supplemental information “concerning] the court record,
newly perceived and acknowledged facts with better explanation, and the issues of factual
predicates/new evidence and equitable tolling.”26 The Court hereby grants the motion
(Dkt. 26) and considers the supplemental information in reviewing the objected-to portions
of the Report and Recommendation (Dkt. 18) de novo.
Petitioner’s fourth motion to supplement simply re-hashes arguments already made
in his first, second, and third motions. After review, the Court still agrees with the
Magistrate Judge that statutory tolling under § 2244(d)(1)(D) does not apply because

25 Suppl. Objs. to Mag.’s R. & R. (Dkt. 24-1) at 2-3.
26 Mot. to Suppl. Info./Facts Concerning Pet’r’s Objs. to R. & R. (Dkt. 26) at 1.
10

Case 5:19-cv-00485-PRW Document 42 Filed 05/28/20 Page 11 of 13

Petitioner was aware of the factual predicate for his insanity defense prior to his conviction
becoming final and that that equitable tolling does not apply. Consequently, Petitioner’s
arguments do not change the Court’s decision to overrule the second objection raised in
Petitioner’s Objections to Report and Recommendation (Dkt. 20-2) or the second objection
raised in his Supplemental Objections to Magistrates [sic] Report and Recommendation
(Dkt. 22-1).
F. Petitioner’s Fifth Motion to Supplement (Dkt. 30)
On January 27, 2020, Petitioner filed a Motion to Supplement Newly Obtained
Information/Facts/Evidence Concerning Petitioners [sic] Objections to Report and
Recommendation and §2254 Petition Claims (Dkt. 30), wherein he requests leave to
supplement his objections with a “letter from the ‘Oklahoma Indigent Defense System. 55527
The Court hereby grants the motion (Dkt. 30) and considers the supplemental information
in reviewing the objected-to portions of the Report and Recommendation (Dkt. 18) de
novo.
In support of his argument for statutory tolling under § 2244(d)(1)(A), Petitioner
produces a letter from the Oklahoma Indigent Defense System dated January 15, 2020, that
explains to him why he likely never received a copy of the police incident report from his
public defender.28 Petitioner argues this letter demonstrates how he “was rendered unable

27 Mot. to Suppl. Newly Obtained Info./Facts/Evid. Concerning Pet’r’s Objs. to R. & R. &
§ 2254 Pet. Claims (Dkt. 30) at 1.
28 See Letter from Mark P. Hoover, Okla. Indigent Def. Sys., to Todd Oliver Ameen (Dkt.
30-2) at 1 (Jan. 15, 2020).
11

Case 5:19-cv-00485-PRW Document 42 Filed 05/28/20 Page 12 of 13

and unknowing to obtain [his] incident detail report any earlier than Dec 6, 2017 by no
fault of [his] own,”29 which in turn apparently demonstrates how he exercised diligence in
discovering the police incident report that he thinks should serve as the factual predicate
for his insanity defense. Yet again, Petitioner’s argument does not reach the relevant issue
of when Petitioner discovered the underlying facts that would support an insanity defense;
instead, it only reaches the irrelevant issue of when Petitioner discovered further evidence
to support the underlying facts. Accordingly, Petitioner’s argument here does not change
the Court’s decision to overrule the second objection raised in Petitioner’s Objections to
Report and Recommendation (Dkt. 20-2).
n. CONCLUSION
The Report and Recommendation (Dkt. 18) is ADOPTED in its entirety.
Accordingly, Respondent’s Motion to Dismiss Petition for Writ of Habeas Corpus as TimeBarred by the Statute of Limitations (Dkt. 13) is GRANTED, and the claims asserted in
the Petition for Writ of Habeas Corpus Under 28 U.S.C. § 2254 by a Person in State
Custody (Dkt. 1) are DISMISSED WITH PREJUDICE pursuant to 28 U.S.C.
§ 2244(d)(1) as untimely filed.
HI. DENIAL OF CERTIFICATE OF APPEAL
Pursuant to Rule 11(a) of the Rules Governing Section 2254 cases in the United
States District Courts, the Court must issue or deny a certificate of appealability (“COA”)
when it enters a final order adverse to a petitioner. A COA may issue only upon “a
29 Suppl. Info./Facts/Evid. Concerning Pet’r’s Objs. to R. & R. & § 2254 Pet. Claims (Dkt.
30-1) at 2.
12

Case 5:19-cv-00485-PRW Document 42 Filed 05/28/20 Page 13 of 13

substantial showing of the denial of a constitutional right.” 28U.S.C. § 2253(c)(2). “When
the district court denies a habeas petition on procedural grounds without reaching the
prisoner’s underlying constitutional claim, a COA should issue when the prisoner shows,
at least, that jurists of reason would find it debatable whether the petition states a valid
claim of the denial of a constitutional right and that of jurists of reason would find it
debatable whether the district court was correct in its procedural ruling.”

Slack v.

McDaniel, 529 U.S. 473, 484 (2000); see also Miller-El v. Cockrell, 537 U.S. 322, 327
(2003). Upon consideration, the Court finds the requisite showing is not met in this case.
Therefore, a COA is DENIED.
IT IS SO ORDERED this 28th day of May, 2020.

PATRICK R. WYRICK
UNITED STATES DISTRICT JUDGE

13

, „ CM/ECF LIVE - U.S. District Courtiokwd

Page 1 of 2

Other Orders/Judgments
5:19-cv-00485-PRW Ameen v. Sharp

U.S. District Court
Western District of OkIahoma[LIVE]
Notice of Electronic Filing

The following transaction was entered on 5/28/2020 at 11:26 AM CDT and filed on 5/28/2020
Case Name:
Ameen v. Sharp
Case Number:
5:19-CV-00485-PRW
Filer:
WARNING: CASE CLOSED on 05/28/2020
Document Number: 42
Docket Text:
ORDER ADOPTING REPORT AND RECOMMENDATION [18]; Overruling Petitioner's
objections [20]; granting petitioner's motions to supplement [22], [23], [24], [26] and [30]
and overruling any objections contained therein; granting [13] Respondent's Motion to
Dismiss Petition for Writ of Habeas Corpus as Time-Barred by the Statute of Limitations
and the claims asserted in the Petition for Writ of Habeas Corpus Under 28 U.S.C. § 2254
by a Person in State Custody (Dkt. 1) are Dismissed with Prejudice pursuant to 28 U.S.C.
§ 2244(d)(1) as untimely filed; finding as moot [37] Petitioner's Motion for Matter Under
Advisement/Motion for Inquiry; and denying certificate of appealability (as more fully set
out) for [37] Motion for Order filed by Todd Oliver Ameen, [30] Motion to Supplement,
filed by Todd Oliver Ameen, [18] Report and Recommendation,, [26] Motion to
Supplement filed by Todd Oliver Ameen, [22] Motion to Supplement filed by Todd Oliver
Ameen, [13] Motion to Dismiss filed by Tommy Sharp, [24] Motion to Supplement, filed
by Todd Oliver Ameen, [23] Motion to Supplement, filed by Todd Oliver Ameen ; ORDER
[37] MOTION for Order, [30] MOTION to Supplement, [18] REPORT AND
RECOMMENDATION re [13] MOTION to Dismiss PETITION FOR WRIT OF HABEAS
CORPUS AS TIME-BARRED BY THE STATUTE OF LIMITATIONS filed by Tommy Sharp,
[26] MOTION to Supplement, [22] MOTION to Supplement, [13] MOTION to Dismiss
PETITION FOR WRIT OF HABEAS CORPUS AS TIME-BARRED BY THE STATUTE OF
LIMITATIONS, [24] MOTION to Supplement, [23] MOTION to Supplement:; granting [24]
Motion to Supplement; granting [26] Motion to Supplement; granting [30] Motion to
Supplement; finding as moot [37] Motion for Order; granting [13] Motion to Dismiss;
adopting Report and Recommendations re [18] Report and Recommendation.; granting
[22] Motion to Supplement; granting [23] Motion to Supplement. Signed by Honorable
Patrick R Wyrick on 5/28/2020. (ks)

5:19-cv-00485-PRW Notice has been electronically mailed to:
Caroline EJ Hunt

fhc.docket@oag.ok.gov, caroline.hunt@oag.ok.gov

5:19-cv-00485-PRW Notice has been delivered by other means to:

https://ecf.okwd.circl0.dcn/cgi-bin/Dispatch.pl7358831414107958

5/28/2020

„ , CM/ECF LIVE - U.S. District Court:okwd

.

Page 2 of 2

Todd Oliver Ameen
#462895
ATOKA-HMCC
1970 E Whippoorwill
Atoka, OK 74525
The following document(s) are associated with this transaction:
Document description :Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1041971380 [Date=5/28/2020] [FileNumber=4266350-0
] [2165dl85dcl6fbb2d3023458d08e44ed2fe9be34d894c4e653ela8ce70a24efd9d9
5e2839f35eb28f77849f546e68aa83aefc72b0dl436ab614322159a6eabf6]]

https://ecf.okwd.circl0.dcn/cgi-bin/Dispatch.pl7358831414107958

5/28/2020

Case 5:19-cv-00485-PRW Document 43 Filed 05/28/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA
TODD OLIVER AMEEN,

)
)
)
)
)
)
)
)
)

Petitioner,
v.
DEON CLAYTON, Interim Warden,
Respondent.

Case No. CIV-19-00485-PRW

JUDGMENT
Pursuant to the Order (Dkt. 42) issued this date adopting the Magistrate Judge’s
Report and Recommendation (Dkt. 18), the Petition for Writ of Habeas Corpus Under 28
U.S.C. § 2254 by aPerson in State Custody (Dkt. 1) is DISMISSED WITH PREJUDICE.
Further, a certificate of appealability is DENIED.
ENTERED at Oklahoma City, Oklahoma, this 28th day of May, 2020.

PATRICK R. WYR1CK
UNITED STATES DISTRICT JUDGE

1

4

I

i*

*

CM/ECF LIVE - U.S. District Court:okwd

Page 1 of 1

Other Orders/Judgments
5:19-cv-00485-PRW Ameen v. Sharp CASE CLOSED on 05/28/2020
U.S. District Court
Western District of Oklahoma[LIVE]
Notice of Electronic Filing
The following transaction was entered on 5/28/2020 at 11:35 AM CDT and filed on 5/28/2020
Case Name:
Ameen v. Sharp
Case Number:
5:19-CV-00485-PRW
Filer:
WARNING: CASE CLOSED on 05/28/2020
Document Number: 43
Docket Text:
JUDGMENT - Pursuant to the Order [42] issued this date adopting the Magistrate
Judge's Report and Recommendation [18], the Petition for Writ of Habeas Corpus Under
28 U.S.C. § 2254 by a Person in State Custody [1] is Dismissed with Prejudice and a
certificate of appealability is Denied. Signed by Honorable Patrick R Wyrick on
5/28/2020. (ks)

5:19-cv-00485-PRW Notice has been electronically mailed to:
Caroline EJ Hunt

fhc.docket@oag.ok.gov, caroline.hunt@oag.ok.gov

5:19-cv-00485-PRW Notice has been delivered by other means to:
Todd Oliver Ameen
#462895
ATOKA-HMCC
1970 E Whippoorwill
Atoka, OK 74525
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=l 041971380 [Date=5/28/2020] [FileNumber=4266362-0
] [9602bdf37b6800a44c46ae2ed5c7773cbdd46af5019d6016b84faa3eb3a316cfb85
5532aa45676183e045aclc6d2ef3d871f6e76133d9a99d646flc5204c7bd0]]

https://ecf.okwd.circl0.dcn/cgi-bin/Dispatch.pl7542448781878472

5/28/2020

